<html>
<title> - [H.A.S.C. No. 116-48] THEORIES OF VICTORY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-48]

     THEORIES OF VICTORY--INNOVATIVE CONCEPTS FOR NATIONAL SECURITY

                               __________

                                HEARING

                               BEFORE THE

                      FUTURE OF DEFENSE TASK FORCE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 29, 2019


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-506              WASHINGTON : 2020                                     
  

                      FUTURE OF DEFENSE TASK FORCE

                SETH MOULTON, Massachusetts, Co-Chairman
                    JIM BANKS, Indiana, Co-Chairman

SUSAN A. DAVIS, California           SCOTT DesJARLAIS, Tennessee
CHRISSY HOULAHAN, Pennsylvania       PAUL MITCHELL, Michigan
ELISSA SLOTKIN, Michigan             MICHAEL WALTZ, Florida
                 Laura Rauch, Professional Staff Member
               Eric Snelgrove, Professional Staff Member
                          Rory Coleman, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Moulton, Hon. Seth, a Representative from Massachusetts, Co-
  Chairman, Future of Defense Task Force.........................     1
Banks, Hon. Jim, a Representative from Indiana, Co-Chairman, 
  Future of Defense Task Force...................................     3

                               WITNESSES

Flournoy, Michele A., Co-Founder and Managing Partner, WestExec 
  Advisors.......................................................     4
Talent, Hon. Jim, Co-Chair, Reagan Institute Task Force..........     9

                                APPENDIX

Prepared Statements:

    Flournoy, Michele A..........................................    33
    Talent, Hon. Jim.............................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Waltz....................................................    49

Questions Submitted by Members Post Hearing:

    Ms. Houlahan.................................................    53
     THEORIES OF VICTORY--INNOVATIVE CONCEPTS FOR NATIONAL SECURITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                              Future of Defense Task Force,
                         Washington, DC, Tuesday, October 29, 2019.
    The task force met, pursuant to call, at 10:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Seth Moulton and 
Hon. Jim Banks (co-chairmen of the task force) presiding.

 OPENING STATEMENT OF HON. SETH MOULTON, A REPRESENTATIVE FROM 
    MASSACHUSETTS, CO-CHAIRMAN, FUTURE OF DEFENSE TASK FORCE

    Mr. Moulton. Good morning. This hearing will come to order.
    I would like to welcome our task force members and the 
witnesses testifying before us today. This is the inaugural 
hearing of the Committee on Armed Services Future of Defense 
Task Force. I ask unanimous consent that non-task force members 
be allowed to participate in today's hearing after all task 
force members have had the opportunity to ask questions.
    Is there any objection?
    [No response.]
    Mr. Moulton. Without objection, the non-task force members 
will be recognized at the appropriate time for 5 minutes each.
    The United States faces a diverse, fast-changing range of 
national security threats, nearly unprecedented in their 
breadth and pace of change. And we need to understand them 
better. As we enter a new decade, it is time for a new 
generation of thinking about these challenges and how Congress 
and the country can meet and defeat them.
    Great power competition from Russia and China, which are 
rapidly advancing next-generation warfighting capabilities to 
leapfrog our legacy systems, is real. We have not seen a dual 
threat like this since the military surge of Germany and Japan 
in the 1930s. At the same time, the threat of transnational 
terrorism persists.
    Sun Tzu said, ``the supreme art of war is to subdue the 
enemy without fighting.''
    In 1938, Mao Zedong wrote, ``Whoever has an army has power, 
and that war decides everything.''
    Over hundreds of years, both Sun Tzu and Mao's influence 
still guide Chinese policy. Currently, the People's Liberation 
Army is the largest military force in the world, and China is 
rapidly modernizing its arsenal while expanding its military 
footprint globally. Its ambitious soft power endeavor, the Belt 
and Road Initiative, has invested in the economic development 
of more than 100 countries, and made inroads across Asia, 
Africa, and South America with major economic and 
infrastructure projects.
    In an attempt to recapture Soviet power and glory, Russia 
is increasingly aggressive in Europe, the Middle East, and the 
Arctic, and is ramping up its ability to challenge the United 
States and its security partners across multiple warfare 
platforms, to include conventional and strategic weapons. Its 
well-known information exploitation and cyberattacks against 
U.S. civilian and military targets continues today.
    The return of nationalism in Europe threatens to weaken 
NATO [North Atlantic Treaty Organization] and destabilize the 
European Union, and embolden Iran who is wreaking havoc in its 
neighborhood through overt military action and backdoor proxy 
alike.
    North Korea continues its march toward full nuclearization. 
And violent extremists and transnational criminal organizations 
continue to cause upheaval globally.
    For its part, the United States remains mired in divisive 
politics at home and conflict abroad, while our adversaries 
build and expand their war machines in ways that seemed 
unimaginable just a few short years ago. Warcraft of the future 
will increasingly rely on electronic sabotage where adversaries 
seek to disrupt and disable our systems and networks before any 
fighting begins.
    As they once again demonstrated this weekend in the raid to 
kill Abu Bakr al-Baghdadi, our warfighters and intelligence 
services are unrivaled in their skill and professionalism. But 
how do we ensure we're training and equipping them for success 
on the asymmetrical battlefield of the future?
    Each year this committee passes a defense bill. It is hard 
and important work. But in terms of budgets and policy, it only 
takes us a few years forward. We need to ask what should our 
fighting force look like in 2050, or even 2075? Our adversaries 
are asking themselves this question. And it is this committee's 
job to start asking that question, too.
    Right now our government and entrepreneurs within our 
country are developing sophisticated technologies: artificial 
intelligence, robotics, autonomous systems, 5G, quantum 
computing, and biotechnologies all offer tremendous opportunity 
for social transformation, yet remain ripe for nefarious 
exploitation. Our rivals will weaponize these systems. They 
have already started.
    In 2017, China announced, along with its plan to become a 
global superpower by 2050, its ``new generation artificial 
intelligence development plan,'' and set the ambitious goal of 
becoming the world's leading power on AI [artificial 
intelligence] by 2030. The Chinese have been unequivocal in 
their intent to develop it for military use. And as we meet 
here, they are spending billions trying to figure out how.
    We cannot cede the advancement of these emerging 
capabilities to our rivals, because the country that wins this 
race will write humanity's values. So, we must lead in the 
technological breakthroughs that will define our time.
    Article I of the Constitution clearly delineates Congress' 
responsibility for our national security. We must work to 
ensure the Department of Defense is freed up to be more agile 
and focused on the needs of the future. Fundamentally, it is on 
our backs to ensure our young warfighters never enter a fair 
fight.
    Our task force mandate to review U.S. defense assets and 
capabilities and assess the state of the national security 
innovation base to meet emerging threats and ensure long-term 
strategic overmatch of global competitors demands asking tough 
questions of the Pentagon and of ourselves. We will seek 
knowledge from longstanding experts, like those before us 
today, and from unlikely sources, and we will build on the 
significant work that has been done by the subcommittees.
    We will look at ways to supercharge innovation, to improve 
the pipelines of ideas, technologies, and personnel into our 
military, and to make tough political decisions that guide the 
development of our force of the future. We look forward to 
providing the American people with our findings.
    I would like to thank Chairman Smith and Ranking Member 
Thornberry for supporting the creation of this task force. And 
I want to recognize my fellow task force members who are 
joining me in this undertaking, and thank them for their 
willingness to serve in this important endeavor.
    With that, I would like to turn to my co-chair, Congressman 
Jim Banks of Indiana.

  OPENING STATEMENT OF HON. JIM BANKS, A REPRESENTATIVE FROM 
       INDIANA, CO-CHAIRMAN, FUTURE OF DEFENSE TASK FORCE

    Mr. Banks. Thank you, Seth.
    I would like to, as well, start by thanking Chairman Smith 
and Ranking Member Thornberry for establishing this bipartisan 
Future of Defense Task Force. We have been chartered to review 
U.S. defense capabilities and assess the state of the national 
security innovation base to meet emerging threats and the rise 
of global competitors. It is a vitally important task, and one 
that I do not take lightly.
    I would also like to thank my co-chair Congressman Moulton. 
I look forward to working with you and the other members of the 
task force.
    And welcome to our witnesses. I cannot think of two more 
qualified individuals to be here with us today as we kick off 
this task force. Thank you, Ms. Flournoy, and special thank you 
to Senator Talent, who I had the privilege of serving with on 
the Reagan Institute Task Force on Innovation and National 
Security. It is good to see both of you again.
    This task force's mandate underpins the foundations of our 
competitive advantage as a nation. How will we prioritize 
research and development, harness emerging technologies, 
sustain an innovation ecosystem, and rapidly field new 
capabilities to deliver them into the hands of our warfighters.
    The qualitative edge over our rivals is dwindling, and we 
can no longer afford to take for granted the military dominance 
that we have enjoyed. China's whole strategy approach, 
amplified by double digit annual growth in their research and 
development spending, and frequent malfeasance, intellectual 
property theft, cyber intrusions, and espionage have propelled 
their defense science and technology efforts.
    And while China's rise is a significant example, much of 
the challenge that we face today has to do with our own ability 
to create and sustain a domestic national security innovation 
base. We must address fundamental aspects of our domestic 
innovation ecosystem by, first, increasing the pipeline of 
domestic STEM [science, technology, engineering, and math] 
talent; improving and expanding the infrastructure that will 
keep us competitive in fields like hypersonics, quantum 
information sciences, and 5G; removing impediments to 
innovation, and speed the adoption of commercial technologies; 
and, creating more opportunities for collaboration and shared 
experiences between the defense community, policy makers, and 
private sector technologists.
    As we build a blueprint for the future of defense, we must 
ensure that it has been informed by engagement from this one 
today, with input from industry, academia, and government. We 
must embrace our role in not only the development of new 
technologies, but also as the global leader in the responsible 
use of these capabilities and counternarrative to China. We 
must elevate the public conversation surrounding the health of 
our national security innovation base, and what action is 
required to meet emerging threats and the rise of global 
competitors.
    In the end, we must ensure all Americans understand the 
true cost of inaction.
    I look forward to hearing from our witnesses today. And 
with that, I yield back.
    Mr. Moulton. Thank you, Jim. Glad to be here with you and 
the rest of the task force. And it is truly an honor to have 
our witnesses here today. So, I am pleased to recognize them.
    And, Ms. Flournoy, we will begin with you with your opening 
statement.

   STATEMENT OF MICHELE A. FLOURNOY, CO-FOUNDER AND MANAGING 
                   PARTNER, WESTEXEC ADVISORS

    Ms. Flournoy. Thank you so much, Chairman Moulton and 
Chairman Banks and our distinguished members of the task force. 
It is truly an honor to testify before you. And I really 
applaud this effort to focus on the critical challenge of 
preparing the Department of Defense and the national security 
innovation base to meet emerging long-term threats.
    As has been mentioned, the resurgence of great power 
competition, combined with an unprecedented pace of 
technological disruption, requires the United States to 
reimagine how we deter and, if necessary, fight and prevail in 
a future conflict. Central to this challenge is ensuring that 
the U.S. military retains its operational and technological 
edge over a revanchist Russia and, particularly, a rising 
China.
    America's military advantage is rapidly eroding in light of 
China's and, to a lesser extent, Russia's military 
modernization efforts. In fact, if we stay the current course, 
a rising China will likely achieve overmatch in a number of key 
capability areas, calling into question our ability to credibly 
deter, defend, and prevail in any future conflict at acceptable 
levels of cost and risk.
    At the core of this military challenge is the substantial 
investment made by China and Russia in so-called anti-access/
area denial capabilities. These mean that the United States can 
no longer expect air, space, and maritime superiority early in 
a conflict. We will need to fight to gain that superiority and 
then to maintain it in the face of ongoing efforts to disrupt 
and degrade our battle management networks. Beyond these 
capabilities, China is investing, as was mentioned, tens of 
billions of dollars in a directed technology roadmap in key 
areas from hypersonics to robotics to quantum computing to 
artificial intelligence and machine learning.
    Indeed, the primary competition on which the United States 
must focus in my view is the tech race with China. Thanks to 
Beijing's doctrine of civil-military fusion in which any 
commercial or research-based technological advance that has 
military applications will be shared with the PLA [People's 
Liberation Army], the Chinese military has made rapid 
advancements in AI and machine learning in particular. Given 
the centrality of emerging commercial technologies like AI, 
quantum computing, 5G, autonomous systems, and robotics, 
ensuring that the U.S. military keeps its edge means that we 
have to have our answer to civil-military fusion. I am not 
suggesting that we act like the Chinese, but we need to have 
our own answer, and soon.
    In addition, both Russia and China have paired these 
technological investments with doctrinal innovations. Russia is 
rapidly modernizing its nuclear arsenal to support its 
``escalate to de-escalate'' doctrine. And with the Trump 
administration weighing a new START [Strategic Arms Reduction 
Treaty] renewal in the wake of our withdrawal from the INF 
[Intermediate-Range Nuclear Forces] Treaty, I feel that the 
United States and Russia are on the precipice of an alarming 
period of strategic instability.
    Meanwhile, China, for its part, has a theory of victory 
that is increasingly relying on what they call systems 
destruction warfare, which is an effort to take out and cripple 
an adversary's networks at the outset of conflict, deploying 
sophisticated electronic warfare, counter-space capabilities, 
cyber capabilities to disrupt our critical C4ISR [command, 
control, communications, computers, intelligence, surveillance, 
and reconnaissance] networks, thwart our power projection, and 
undermine our national resolve. This means that the United 
States, again, can no longer take space for granted as an 
uncontested domain. In the future, space will be a domain 
through which and from which we project power.
    Nonetheless, given the reluctance of major powers to enter 
large-scale conflict with the United States, in the near term 
we are much more likely to see Russia and China pose challenges 
in the grey zone at the level below conventional armed 
conflict. We can expect them to focus on trying to unilaterally 
and incrementally alter the status quo in their favor using 
economic, diplomatic, and military coercive means to achieve 
their objectives.
    I think the National Defense Strategy of 2018 provides a 
critical strategic framework for addressing these mounting 
challenges, and reflects a growing sense of urgency among the 
Department's leadership about our eroding military advantage. 
If you look at the 2020 budget that Congress has supported, you 
also see bipartisan commitment to ensuring that we invest in 
the technology and capabilities that we need to implement our 
strategy in the face of a more contested period of great power 
competition.
    However, the current budgetary environment, and I think 
what we can project for the future, will require us to make 
some difficult trade-offs to buy down risk in the future. The 
central question for this task force and the committee is how 
do we invest our defense dollars wisely? And how do we invest 
with the speed and effectiveness required to keep our edge, 
given the speed with which our potential adversaries are 
moving.
    In the near term, I believe the Department must make 
reestablishing credible deterrence our central objective. 
While, again, I don't believe the United States or China or 
Russia, all nuclear powers, would deliberately start a war, 
given the dire costs involved, we could nevertheless stumble 
into conflict if an adversary were to miscalculate either our 
resolve or our capabilities. I think this risk is greatest in 
the next 10 years, when the United States has telegraphed its 
vision for the future force but is yet to procure and deploy 
all of the systems necessary to fully translate that vision 
into reality.
    To prevent miscalculation or escalation to conflict with a 
nuclear-armed rival, I think we have to decide what are the 
capabilities we need to prioritize developing, acquiring, and 
demonstrating in order to credibly deter aggression either 
through denial of an enemy's objectives or through the ability 
to impose crushing costs for any act of aggression.
    And, again, I think we need to think in two timeframes. 
First, what do we need in the next 5 to 10 years, which is 
largely cobbling together current capabilities in new ways? And 
what do we need 10 years and beyond for a very different 
future? We need to think creatively about how we can deter, 
prevent a great power rival from starting down the road to war. 
This means we have to--DOD [Department of Defense] should 
devote considerable effort to conceptual--concept development 
and war games to develop a suite of interim deterrence 
approaches, again using existing capabilities in new ways to 
dissuade aggression.
    The fact that several countries around the world are 
questioning U.S. commitment and resolve means that we also have 
to do a better job of clarifying our policies about what we 
will defend, and make sure that our words and messaging, our 
budgeting, all send a consistent message to, again, strengthen 
deterrence and shake the risk calculus of any nation who would 
consider using force to pursue their ends.
    We also need a strategic framework to guide whether and 
when and how we reveal new capabilities to bolster deterrence, 
and when we keep them in reserve and highly secret.
    So, I am conscious of time, but I want to highlight six 
areas where I think we need to focus our efforts.
    First, the DOD needs to implement a series of acquisition, 
investment, and workforce development reforms to foster the 
innovation ecosystem that Representative Banks talked about. 
This is essential to maintaining our military edge.
    First and foremost, the DOD has not adequately trained or 
incentivized its acquisition workforce to employ the 
authorities that Congress has provided them at scale, more 
flexibility authorities. There are pockets of excellence, like 
SOCOM [U.S. Special Operations Command] and the Air Force, but 
the bulk of the acquisition corps is not using authorities like 
OTAs [other transaction authorities], 804, even SBIRs [Small 
Business Innovation Research], and so forth. As we prioritize 
procuring software and network capabilities to enable the 
future joint multi-domain operations, we need an acquisition 
cadre that is trained and rewarded for rapid and agile 
development of new technologies.
    Second, we also need top-down leadership to provide 
strategic direction and top cover to pursuing more ambitious 
goals. I would love to see the Secretary of Defense set an 
audacious goal for each of the services to say by the end of 
the FYDP [Future Years Defense Program] we want to see new 
force units that are focused on human-machine teaming, that are 
leveraging AI, machine learning, robotics, et cetera. We want 
to field those, the first of those units by the end of the FYDP 
to give the service some very concrete goals to work towards.
    In addition, various service units like DIU [Defense 
Innovation Unit] and SOCOM are playing very important tech 
scouting roles, but there remains what I call the valley of 
death between having a successful demonstration of prototype 
and actually getting a spot in the program of record. You know, 
if you are a small commercial technology company, you often 
find that valley of death impossible to cross. So we need to 
accelerate reform efforts to enable that transition.
    One approach would be for Congress to authorize more 
flexible bridging funds that services could allocate on a 
competitive basis to sustain capability development in that 
period between prototyping and actually getting a spot in the 
program of record. Happy to talk about that in more detail.
    The point about tech talent. The Department currently lacks 
the tech talent--senior and junior, civilian and military, 
Active, Reserve--to develop, integrate, and deploy critical 
emerging technologies. We need to expand scholarship for 
service programs beyond cyber to a much broader range of STEM 
fields. We need to be recruiting mid-career tech talent by 
expanding scholarships and opportunities for people to come 
from the tech community into the Department to serve, and vice 
versa. And we need to be doing a lot more upscaling of the 
current workforce into technology areas, providing tech talent 
with viable promotion and career paths in service.
    Second big basket is the Department needs to ramp up its 
efforts to develop joint and service-specific operational 
concepts to drive more rapid fielding of game-changing 
technologies.
    The United States needs to urgently develop and test joint 
concepts like multi-domain operations and supporting service 
concepts. And we need to be testing the technologies that will 
be most critical to operationalizing these, requiring a 
continuous reinforcing cycle of war gaming, prototyping, and 
experimentation.
    To do so, Congress has to provide the services with more 
robust funding to field small numbers of emerging capabilities 
for early-stage concept development and experimentation. Right 
now we are sort of in a catch-22 position where, you know, the 
Navy will come and say I need a handful of undersea unmanned 
vehicles to experiment with, and play with, and develop a fleet 
concept. And the Congress will say, well, no, we can't really 
give you the money--or certain committees, not this one--will 
say, you know, we can't really give you the money until you 
have all the concept worked out. So, you are in a catch-22: 
they need the technology to develop the concept; if you don't 
have the concept you can't get, you know, get the technology. 
We need to break that logjam, take a little more risk in the 
future if we are going to be able to develop new concepts and 
capabilities fast enough to keep pace with potential rivals.
    I think we also similarly need robust concept development 
and war gaming to look at how existing platforms can be used in 
new ways to shore up key capability gaps. This is exactly the 
sort of critical bridging work that the Strategic Capabilities 
Office, or SCO, was doing before it was moved under DARPA 
[Defense Advanced Research Projects Agency]. The Department 
needs a SCO-like office to drive these efforts, to shore up 
deterrence and our operational edge in the near to mid term. 
And I think this move to DARPA will undermine that capability.
    Third, the Department should adopt best practices and 
lessons learned from the commercial technology sector about 
agile development and program management. We are, you know, the 
Department has very ambitious goals to migrate to the cloud, 
leverage large data sets for artificial intelligence, build 
interoperable multi-domain networks at scale. The Air Force is 
moving out smartly and building an Advanced Battle Management 
System which is really the long pole in the tent for multi-
domain operations.
    And I have been very impressed with how that effort has 
been organized.
    But we need to do a better job of integrating private 
sector approaches to technology development, data management, 
network security. And, again, we can go into the details of 
that in Q&A [question and answer] if you are interested.
    Fourth, I think that budget realities over time will 
require us to make tough trade-offs between legacy platforms 
and critical new technologies. Currently, while we have made 
some progress, I believe the United States is still 
underinvesting in the new technologies that will ultimately 
determine our success in the future security environment, and 
overinvesting in legacy platforms. This is a recipe for 
failure.
    In order to make the trade-offs necessary, we have to 
answer a fundamental question for every major program of 
record: Where is the knee in the curve? Where is the point 
where it makes more sense to forgo the n+1 platform, aircraft 
carriers, you know, fighter aircraft, tanks, whatever the major 
program may be, and instead of taking that one additional 
platform, take that money and invest it in the capabilities 
that will make sure that the rest of that fleet is survivable, 
has the range, has the relevance, has the combat effectiveness 
for the future security environment.
    To me, the SECDEF [Secretary of Defense] should be asking 
each service those tough knee-in-the-curve questions, and be 
willing to make those hard choices to prepare for the future 
fight. And Congress has to support those hard choices, as hard 
as those are. Because sometimes we are going to have to, you 
know, decrease or stop buying some legacy systems in order to 
make the reinvestment we need in the technologies that will 
make the difference.
    Fifth, we need to adapt our overseas posture and our 
security cooperation programs to make them much more effective, 
and leverage the strategic value that our partners and allies 
bring to the table. Again, we can talk about that in the Q&A if 
you are interested.
    And, finally, I think we need to, again, focus not just on 
the extreme long term but also shoring up our capabilities in 
this critical decade for deterrence.
    So, in summary--and I am sorry I have gone on so long, but 
I am passionate about this issue--you know, we are really at a 
critical juncture. I call it, you know, this is a moonshot 
moment for the United States. We need national leaders with a 
vision. We need an urgent call to action. And we need a far 
more robust and focused investment in the drivers of our 
competitiveness. That includes research and development with a 
focus on critical dual-use technologies; STEM education; 21st 
century infrastructure like 5G; incentives for enhanced 
collaboration between government, business, and academia; and 
we didn't coordinate our comments in advance, but many of the 
things you mentioned.
    And speed is of the essence here. The actions we take in 
the next few years could not be more critical. We also need to 
be, our vision needs to be informed, as you mentioned, 
Representative Moulton, by our core values and the interests 
that we seek to protect.
    I believe the United States must maintain our global 
leadership role as a force for good, a defender of democracy 
and human rights and the rules-based international order. We 
need to make sure that our economy remains the most innovative 
and dynamic in the world, because that is the foundation of 
both our global influence and our national security. And we 
need to be leveraging all national security instruments, not 
just the military, to achieve the ends we've talked about this 
morning.
    So, let me stop there. And look forward to your questions.
    [The prepared statement of Ms. Flournoy can be found in the 
Appendix on page 33.]
    Mr. Moulton. Ms. Flournoy, thank you very much. That was a 
lot but we have a lot to discuss here. So, we are grateful for 
your wisdom and insight, as always, before this committee.
    Senator Talent, over to you, sir.

 STATEMENT OF HON. JIM TALENT, CO-CHAIR, REAGAN INSTITUTE TASK 
                             FORCE

    Mr. Talent. Thank you, Mr. Chairman. It is a pleasure to be 
here, and with Secretary Flournoy. I mean that in all 
sincerity; I never listen to her without learning something. 
And we served together on the 2014 QDR [Quadrennial Defense 
Review], and that was a very instructive process.
    I, too, want to congratulate the committee chair, chair and 
ranking member for establishing this task force which, in my 
experience with the committee, goes back 25 years, on it part 
of the time and around it part of the time, I can't think of a 
precedent like this. I am still at heart a former member. So, 
from your perspective, what I thought when I heard about it 
was, oh great, another committee assignment. Right? Because it 
is not like they are going to let you off the markup or the 
other things you have to do to serve on this.
    But I think it is very important. It shows your 
understanding, as the Secretary was saying, we are now firmly 
in a new era. We have emerged from the post-Cold War era now 
into something else, which I think is going to be dominated--I 
think there is a consensus on this--it is going to be dominated 
by great power competition. There are, of course, other 
threats. And you all and the government has to walk and chew 
gum at the same time, right? And innovation is going to be key 
to everything.
    But when you look at great power competition--and by the 
way, we started moving into that era in the Obama 
administration with the pivot, with the rebalance. We see it 
now with the National Security Strategy. And I think it is 
going to continue for many administrations in the future. I 
think this is generational, which is why the Reagan Institute 
formed a task force on the national security innovation base. 
And that is, I am sure, the reason why you have invited me. I 
am co-chairing that with Secretary Work, who knows a lot about 
the Department's approach to innovation.
    So, we agree that innovation is going to be the key to the 
success in the competition. Now, capacity is also important, 
numbers matter, and they will continue to matter. But--and the 
Chinese understand this also. We and they recognize the better 
innovator is likely to win and have success in that 
competition. And they are the pacing challenge in the sense 
that they are the closest to a peer competitor. I think in 
certain respects they are a peer competitor. In certain 
respects they may be outrunning us in this.
    And, also, because if we are prepared to deal with the 
challenge from China then I think it means we are probably also 
going to be prepared to deal with competition from Russia, and 
even Iran and the rest of it.
    Now, I have four observations drawn from our experience on 
the task force that anticipates some of what we are going to 
have in our report, which should come out in the next month or 
so. And by the way, thanks to Mr. Banks and also Mr. Kim, and 
Mr. Gallagher, and Ms. Murphy for serving on the task force and 
contributing to that. So, they kind of have a head start on 
this national security innovation base stuff.
    So, four observations for you all, from your side of the 
table.
    So, as you do this task and approach this task get clear in 
your own mind and a common understanding as a group of what the 
national security innovation base actually is. So, we spent a 
whole session discussing this. And Mr. Kim gave us I think the 
word that you are going to see a lot in our report: it is an 
ecosystem. It is enormous. It is pulsating. It is chaotic in a 
lot of respects. It is characterized by dynamism, a very risk-
positive culture. And it has changed a lot from the national 
security innovation base in the Cold War.
    There are some similarities. The public actors are largely 
the same. The Department of Defense, the intelligence agencies, 
the National Labs, they are still in the national security 
innovation base. We still have universities attached to it.
    But now, a huge part of the base, in fact the dominant with 
regard to certain technologies, are private sector actors 
primarily in the for-profit tech community who are pursuing 
dual-use innovation that is of vital importance to the national 
security of the United States but who, you know, who are 
pursuing it for their own purposes. They are perfectly 
legitimate, largely commercial purposes. These actors have 
little or no experience dealing with the government, and the 
culture of the government, and the regulations of the 
government, and the procurement processes of the government. 
And they are often not even aware of the national security 
implications of their work.
    So, your task is basically, I would approach it this way, 
it is to coordinate, to direct, and empower the national 
security base, innovation base, but without suffocating the 
aspects of the base that are its greatest strength. Right?
    So, I would think about it in terms of defining priorities, 
structuring incentives so that the various elements of the 
ecosystem work together towards common goals. In other words, 
they all see what the common goals are, the incentives are 
structured so they can do it and even have incentives to do it, 
and so they are like a team moving towards the same thing. And 
I think if you do that we are going to have a tremendous 
advantage over the Chinese industrial base which, as Secretary 
Flournoy was saying, is much more authoritarian, much more top 
down, and where they are trying to make it more so with their 
military-civil fusion process.
    Now, you are going to have to be proscriptive sometime, you 
are going to have to prescriptive sometime, you are going to 
have to require some things and forbid some things. But I think 
it will work if the actors in the system at least understand 
why you are doing that. So, they go, well, you know what, we 
don't like that restraint but we get it. Okay, we understand 
why we can't go out and partner on that technology.
    That is related to the second point. So, you are going to 
encounter, I think, as you approach the national security 
innovation--you already do all the time in legislation--
constant tension between protecting the technology we have and 
getting the new technology we need between security on the one 
hand and innovation on the other; between, if you want to think 
of it this way, defense, right, and offense.
    So, defense suggests siloed supply chains which the 
Department is talking about, limiting interactions, export 
control. You can't do partnership with certain, you know, the 
universities and the firms can't do partnerships with certain 
actors. The public actors in the system are comfortable with 
that because that is how they have been, that is the culture 
they have been living in for a long time.
    Offense on the other hand, getting technology, requires a 
degree of transparence, it requires partnerships, consortiums, 
sharing ideas. Now, there is security. They get that. They all 
have to keep their patents secure and the rest of it. The 
private actors are more comfortable with that.
    So, in my written testimony, how do you resolve it? It is 
going to be a case-by-case thing. We did come across an idea 
that was suggested by one of our national partners in the 
national technology industrial base, you know, this new, and 
you guys expanded this I think in the Defense Act last year. It 
now includes the Australians, the Canadians, as well as the 
Brits. And we had a briefing session with partners. And they 
are coming and discussing strengths and weakness of sharing 
technology with the United States.
    And the Australians made, I thought, a very good 
suggestion. They said, look, if we were you we would build 
higher fences but around fewer things.
    So, decide what the technology is that really is vital, 
that we do control. Because if they can get it from somebody 
else anyway, it doesn't make as much sense to restrict our 
actors, our segments of the ecosystem from partnering, right? 
And build high fences around that. And otherwise err more on 
the side of offense, because I think we are probably going to 
win this competition more through offense than defense. 
Whatever you do, be clear about it because, remember, this is a 
big, pulsating, chaotic ecosystem. They are all going to want 
to do and they know they need to do what you insist that they 
do, but uncertainty from you or the government is the enemy of 
both security and innovation.
    Third point, and I will go briefly through this because I 
am taking too long. I want you guys to be able to get to the 
questions. But this is, just because I am brief about it 
doesn't mean I think it is an unimportant point.
    Take an inventory of what the Department is already doing 
and pull out the models that are really working, for a couple 
reasons. One, because you may be able to scale and expand them. 
But the other is because those models will be working for a 
reason. And if you can figure out why they are working, the 
characteristics that make them successful, then you can 
replicate that in other parts of the ecosystem.
    So I suggest in my testimony, and we are going to focus on 
this in our report, obviously DIU, which you all deal with all 
the time, although we do suggest that the investment policies 
of the Defense Innovation Unit be reoriented a little bit more 
in the direction of trying to get innovative new tech 
companies, programs of record sooner in the time horizon. 
Because if the tech investment community believes that by 
putting money, investing in different tech start-ups is a 
realistic possibility that they can hit the jackpot with an 8-
figure program within a realistic period of time, what we are 
assured by the venture capital community is they will all start 
wanting to go into it, which is I think what we want, right?
    But also look carefully at the Defense Digital Service, 
which we have not, and at Hackers for Defense. You are nodding 
heads. I should have known, you are already familiar with this. 
But I was so excited. I briefed both of those because those 
are, one is an inside-out program, the other is an outside-in 
program. They are organically linking together these two 
cultures. They are organically drawing bright young tech talent 
into the national security world. They are changing--it is 
almost like joint assignments over time, creative jointness.
    Really look at that, and see if you can scale it and expand 
it. They are expanding anyway. Hackers is expanding, or Hackers 
for Defense. I shouldn't say just ``hackers,'' Hackers for 
Defense. Perfectly legitimate, if you are not familiar with it, 
but they are bringing tech talent into--and by the way, they 
are helping the Department redefine, reimage how it asks 
questions. That is one of the things Hackers, these are teams 
of kids in universities around the country, they take this 
course for credit, but they are linked into the national 
security community. And problems, actual problems are presented 
to them to solve.
    And one of the first things they do is work with the 
government sponsors to ask the questions in different ways, in 
ways that will make it amenable and open to tech solutions, 
which is teaching our people in the Department how to think in 
terms of technical solutions.
    So, I was really excited about it, I think you can tell.
    Okay, the final point is this. We are all, as Secretary 
Flournoy said, we need to get breakthroughs in key areas of 
innovation: AI, directed energy, quantum computing, the list 
goes on and on. If you want breakthroughs it means you have to 
take a gamble on technology by definition that isn't already 
proven, right, because you are going for breakthroughs. Which 
means you have to make investments that are a little bit 
riskier than the government is used to making, which means you 
have to be prepared to fail sometimes.
    And I think I didn't realize from that side, when I was on 
that side of the table what I realize now is how important it 
is for these actors in the Department and all throughout the 
public segment of the ecosystem to know that you understand 
that and you will have their backs. They are very afraid of 
making an investment, particularly if they have to use 
authority to go outside the established rules and they don't go 
through all the regulations to invest and the rest of it and it 
doesn't work. And what will Mr. Smith think of that? What are 
they going to say? Am I going to get called before them in a 
hearing? How am I going to explain it? Is it going to be a 
career ender? Okay?
    And I think you need to find ways to send a message to them 
that, look, just as the tech community does, they know that 
they couldn't, can't achieve the successes they want with the 
payoff they want unless they fail sometimes. So, I think you 
need to find a way to send a message. Of course you want the 
due diligence done. Of course you want thoughtfulness and 
purposefulness. Of course you want them to keep you informed. 
You are entitled to oversee what they are doing. Okay. But 
within those limits it is okay to fail. And as a matter of 
fact, I think you should send a message that if 5 or 10 years 
from now all of their experiments have succeeded, they are 
probably not experimenting enough.
    And if you send that message, then I think--and you do that 
consistently, then I think there is a greater chance that they 
will reach out in the way that Secretary Flournoy has 
suggested.
    So, thank you. Ready to take your questions.
    [The prepared statement of Mr. Talent can be found in the 
Appendix on page 43.]
    Mr. Moulton. Okay. Thank you both very much. I know we have 
learned a lot already.
    Let me dive into questions. And, Secretary Flournoy, we 
will start with you.
    You concluded your statement by talking about how 
fundamentally this is a fight for the survival and success of 
American values, and that is why it is important to win this 
fight. One of the things I think we struggle with is the 
concurrent development of technology and the policy around that 
technology, the norms of its use, its employment, training, and 
doctrine or whatnot.
    In your view, what actions does the Department need to take 
to promote more alignment in policy, employment concepts, 
training doctrine, and other matters as technology matures?
    Ms. Flournoy. I think as we undertake the technology 
development and conceptual efforts we need to have a policy 
conversation that is in each of the key areas that is trying to 
come up with a set of principles or guidelines that are rooted 
in our core values and who we are as the United States.
    I think an example of this is the Defense Innovation Board 
which, you know, is a lot of really talented tech people who 
are working for free, has taken a stab at AI principles to 
guide our artificial intelligence work in the Department. That 
is the kind of thing. And I think that is a great basis for 
them to have conversations with the private sector and with the 
tech providers about what the Department is and will do and 
won't do. And I think it will clear up, frankly, a lot of 
misconceptions that sometimes exist in the tech workforce.
    But I think in each of the areas where we are moving out we 
should be in parallel having those policy conversations. And I 
think it is sort of incumbent on the Department to sort of 
initiate those, but also to draw in other members of this 
innovation ecosystem.
    Mr. Moulton. Senator Talent, do you want to add anything to 
that?
    Mr. Talent. You know, I think, I think one of the, one of 
the things we need to do--and Michele mentioned this in her 
testimony, I think you did in your opening statement--one of 
the things the Department has to do, it has to refine its 
operational concepts first. It has to define how is it going to 
operate in response to a particular challenger?
    Reduce it to its essential. Okay, how are we going to fight 
China if we have to fight China? Although I would put it, how 
are we going to respond to provocations in a way where the 
Department plays its role in a sophisticated cost imposition 
strategy?
    Now, when you know what it is you want to do in response to 
a particular challenge, then you have a more concrete 
opportunity to consider what are the ethical considerations or 
the other considerations that are likely to come up in the 
context of that. And so, if you don't know what you are trying 
to do, it is hard to anticipate what the constraints ought to 
be in doing it.
    Mr. Moulton. Senator, when you talk about that, are you 
talking at the strategic level, like, how do we go to war with 
China if it comes to that? Or is it more at the sort of 
technological level where we talk about the norms for the use 
of AI?
    Mr. Talent. I think it is both. Although I would say on the 
strategic level this is a job that is as much or more for you 
all on your side of the table. In other words, okay, we are in 
this competition. Let's just pick with a particular actor, with 
China, since I think it is the pacing challenge. So, what does 
winning the competition look like? What does success mean? 
Where do we want to be 5 years, 10 years, 15, 20 years from 
now?
    They are defining that. And I think the top-level political 
authority, which you all represent, what is it you want the 
outcome of this to be and why?
    Now, once you have provided that direction--and I don't 
think we have done it yet to the Department--then they can play 
their role in saying, hey, what is the National Defense 
Strategy in terms of that? I would just suggest I think success 
means protecting the American homeland, the territorial 
integrity of allies, the economy, from attacks. And I think it 
means what Michele was talking about, the preservation of a 
system throughout the Indo-Pacific and the world where nations 
relate to each other according to rules, and resolve disputes 
peacefully, and not according to who is bigger.
    Let me add this because it may be a useful way of thinking. 
And it is not mine. I was in Tokyo with the China Commission a 
few years ago talking to a Japanese scholar, and he was 
referring to Beijing and the rulers of Beijing. He says, you've 
got to understand, he said, we look at the world horizontally 
and they look at it vertically. We look at it as a world where 
nations basically have equal rights and operate according to 
norms. Now, obviously everybody maneuvers around the edges for 
advantage. They look at the world where--and this is an 
historical view, this is not something recent with the Chinese 
Communist Party--where they are the Middle Kingdom in a 
position of suzerainty, in essence. And the big dogs get the 
benefits, and they are the big dog.
    And this is the fundamental conflict of vision that I think 
the Obama administration, one of the tremendous gifts the Obama 
administration gave us was they identified right at the 
beginning that that was the object of our policy. So, once that 
is set, then we can say to the Department, okay, we are going 
to fight the grey war, too, within certain limits. How are you 
going to contribute to that. And then what kind of limits do we 
want to insist upon because of our values?
    Mr. Moulton. That is very helpful. Let me just ask one more 
question. Secretary Flournoy, I'd start out with you.
    You stated in your testimony that rather than provoke a 
major confrontation, our adversaries will continue to try to 
unilaterally and incrementally alter the status quo in their 
favor, using economic, diplomatic, and military coercion to 
achieve their objectives. Think Russian information operations 
in Ukraine and Europe, China's efforts to fortify artificially 
created islands in the South China Sea.
    What are some examples of things the Department is doing 
that you see as a, quote, ``waste of time, money, and 
resources'' that could be better used to counter these threats?
    Ms. Flournoy. Well, this is where, you know, I do think 
this is why I proposed this sort of knee-in-the-curve thinking 
about major, like, how many numbers of legacy platforms, what 
size, how many aircraft carriers, JSFs [Joint Strike Fighter 
aircraft], you know, pick your, pick your flavor. Because in 
addition to the strategic thinking that Senator Talent 
mentioned, which is absolutely right, I think this body also 
has to dive into the operational level sort of campaign 
concepts. Because we are equipping ourselves to fight the last 
war right now. And we are not going to have that luxury.
    And we have to be thinking--and I want to applaud, the 
Department is really trying, thinking through multi-domain 
operations, the services, the naval services have distributed 
maritime operations. The Air Force is coming up with its 
concept; the Army. I mean, I would hope that you, you know, 
whether it is this task force or the broader committee is 
diving into that conceptual work to really understand because 
that is the basis on which we should be making the eaches, 
eaches of program decisions.
    I mean, if the whole--I will give you an example. Long pole 
in the tent for multi-domain operations is a multi-billion 
dollar investment in cloud data infrastructure, networking, 
interoperability, basically building an advanced battle 
management system. And that is going to require trade-offs. We 
are going to have to take money from elsewhere in the program.
    But if you, you know, have no, if there is no conceptual 
grounding for those individual trade-offs, how are you supposed 
to make those judgments? And so, I would really encourage you 
all to dive into that conceptual work at the sort of campaign 
level because I think that is really critical to making the 
hard choices. And they will be hard choices because in every 
case you are going to be taking a legacy program with a defined 
and powerful constituency, and trying to shift money to 
something new that has no constituency yet but without which we 
will fail. And whether it is failure of deterrence or failure 
to actually deal with aggression when it occurs.
    So, that is a--I haven't given you a list of programs to--
but I do think we need to communicate our commitment: what are 
we committing to defend? And every day, potential, you know, 
rivals need to see us doing freedom of navigation operations, 
showing up at regional fora, standing behind allies and 
partners who are risking, taking risk alongside us.
    And here I have to say, the recent abandonment of the Kurds 
in Syria is not only a terrible decision for fighting ISIS 
[Islamic State of Iraq and Syria], but also sends a horrible 
message to every partner and ally we have around the world. And 
that is going to take quite a number of years to overcome, I 
think, sadly.
    Mr. Talent. I will address it. And I don't think I 
addressed the second half of your question, Mr. Chairman, 
before, so maybe I will just do it now.
    So, I think the key is to think in terms of how do we 
impose costs on the competitors in a way that is real to them 
so that we have actions for deterrence but in a way that is not 
escalatory, at least in the military sense.
    What are our horizontal options?
    Now, some of those, and we have to begin thinking more 
consistently in terms of the fact that this competition is 
across a number of domains, obviously, and they all have to 
work together. So, there is economic, there is reputation. You 
have done that with the BUILD [Better Utilization of Investment 
Leading to Development] Act. I was so encouraged when I saw 
that, because that is an opportunity for us to put some money 
in, for example, in Southeast Asia, which Beijing views as its 
sphere of influence. And that is going to set alarm bells off 
in Beijing. What are the Americans doing in Southeast Asia and 
in South Asia?
    See, that is a way of imposing cost on them.
    So, the curious thing, Mr. Chairman, is that I think some 
of this can be expressed in low-end options--we are here 
talking about technology--that could be very helpful in the 
short 5- to 10-year windows that Michele was talking about.
    I will just throw out an idea. Okay? Russia is very 
interested in the Arctic. China is very interested in the 
Arctic. We could present a real alternative as competitors to 
them in the Arctic if we had more icebreakers, and if the Coast 
Guard had more of those cutters. I think you are buying three 
of them. They want six. So, these are low-end options. But why 
don't we get involved in areas they think are very important? 
Make them think.
    See, that is a cost imposition thing. Really what you are 
doing here, there is a similarity to the Cold War. It is not a 
Cold War. But just as in the 1945-1955 timeframe Congress 
created, on a bipartisan basis, an architecture of national 
security tools which was then used by Presidents of both 
parties to prosecute the Cold War, that is what you are doing 
now. You are doing it with the CFIUS [Committee on Foreign 
Investment in the United States] reform, you are doing it with 
the BUILD Act, you are doing it with ARIA [Asia Reassurance 
Initiative Act of 2018], and you are going to do it with 
procurement. That is the question you are asking.
    So, I think in terms of if you were down there at the White 
House and at the end of the table--and Michele's been in those 
rooms--making decis--what would you, what options would you 
like to have? And this is, this was the problem with AirSea 
Battle. And I said at the time, wait a minute, if our option in 
dealing with the Chinese is to bomb the Chinese homeland--and I 
know that is oversimplistic----
    Mr. Moulton. Right.
    Mr. Talent. What President is going to order that----
    Mr. Moulton. Right, right.
    Mr. Talent [continuing]. Because, because they have taken 
the Second Thomas Shoal?
    Mr. Moulton. Right. Sir, thank you very much. I know we are 
running over here on time. And we are grateful.
    Mr. Talent. In Missouri----
    Mr. Moulton. I want to defer to not----
    Mr. Talent. I was going to say in Missouri we would say 
that I gave you more answer than you gave me question. So, I am 
sorry about that.
    [Laughter.]
    Mr. Moulton. So, I am happy to turn over not to the ranking 
member but to my co-chairman. This is a very bipartisan task 
force. And with that, Mr. Banks.
    Mr. Banks. Thank you, Chairman Moulton.
    Ms. Flournoy, in your testimony you highlighted Beijing's 
doctrine of civil-military fusion, while here in the U.S. there 
seems to be a growing rift between commercial technology hubs 
and the Pentagon. What additional efforts can be undertaken to 
help create a model of civil-military fusion domestically?
    Ms. Flournoy. I think that, you know, in my current 
capacity in consulting I am actually finding there are a lot of 
folks in the tech community, whether it's Silicon Valley, or 
Austin, or [Boston's Route] 128, or wherever the hub is, who 
actually want to contribute to the national security space. And 
so, we have to make it easier for them to do that.
    And I think it is a matter of systematically sort of 
identifying the key barriers, whether they are acquisition 
barriers, whether they are tech talent barriers, we need to, I 
mean I listed a number of them in my statement, and you listed 
a number of them in your opening statement. But I think we, we 
need to systematically break down those barriers to allow them 
to contribute more.
    I do think that one of the ways to really incent the 
private, the commercial tech ecosystem is to put, to help them, 
you know, companies cross this valley of death. Right now the 
narrative in Silicon Valley is, you know, we had an AI company, 
it had a couple of SBIR contracts with a service, it was--we 
really bet on this turning into something. The service loved 
the technology. And then it got canceled because the service 
didn't have the cloud, you know, infrastructure and the data 
architecture to then take it to the next level as a program of 
record.
    Or, we have another--we have an AI-enabled quadcopter 
company. They have won all of the SOCOM and SOFWERX, and all of 
the prototyping contests and demonstrations. And, you know, 
that was in fiscal year 2019, and we are going to put them in 
the program of record in 2021. And their investors are, like, 
what happened? We need $10 to $20 million to survive to get to 
2021, what happens in 2020? And there is literally no color of 
money that can help them in that bridge.
    So I think that bridging work. I think the tech scouting is 
working, you know. The demonstration prototyping is working. 
You need to, it needs that bridge to the program of record, and 
putting real money on the table. That is what is going to get 
the venture capital community excited. Because right now most 
of them, with a few exceptions, are advising companies don't 
develop a national security business because it is too 
uncertain, the risks are too high, we won't get the return on 
investment, you are wasting your time. You are just going to 
suffer a horrible, you know, flame-out after a few years of 
effort.
    So we have to change that incentive structure. And I do 
think there are ways that you could provide some more flexible 
bridging funding that companies can compete for to get some of 
them to programs of record. And once they are at scale, they 
will come. You know, if you build it, they will come. But you 
have to get them to--you have to put some successes on the 
board.
    Mr. Banks. Thank you.
    Senator Talent, in your testimony you mentioned the need 
for the DOD to move toward a different procurement strategy and 
allow for additional risk. Over the past year, China has made 
significant strides in the development and testing of 
hypersonic weapons.
    How has China been able to develop those technologies at 
such a fast rate?
    Mr. Talent. That is a good question. I am concerned that 
this is real and that they are, the latest developments are 
reflective of what is actually happening and that they may be 
well ahead of us. They have been putting a consistent emphasis 
on hypersonics for a long time. I think part of it is the fact 
that they are very comfortable with a missile-centric military, 
and this was a logical development.
    When I was in the Senate I was trying to get the Department 
to focus. I put money in for that. It was difficult. This was 
in the mid-aughts. Difficult to get them to focus, and the 
Chinese were working on it. I think this is a result of effort 
over time.
    I think generally speaking they are better at incremental 
innovation than at breakthrough. And I think it is because 
their system is such a top-down system it doesn't encourage it.
    I would also not be surprised to find out that they stole a 
lot of the foundational technology. And one of the things you 
have to keep in mind, particularly with this aspect, with this 
competitor is that they are very good at that and they build it 
into their plans. Okay.
    So, specifically with respect to hypersonics that is what 
I, that is what I would say. That is one of the vital 
technologies where I think funding is still basically dominated 
by government money, which is unusual, like compared to AI or 
quantum. So, I think the Department can do a lot about this. 
But it is really important because the impact of the next 8 to 
10 years, particularly in that theater, if they are able--I 
don't have to tell you all--to operationalize hypersonics, we 
have trouble because our missile defenses go out the window.
    So, that is what I would say specifically with regard to 
that.
    Mr. Banks. Ms. Flournoy, any thoughts on that? Or what are 
the barriers that are preventing the United States from 
catching up?
    Ms. Flournoy. Again, I think that our efforts on 
hypersonics have been primarily sort of programs through DARPA 
in the past. Those have not generally, you know, led to 
programs of record.
    I do think, you know, consistent focus on this will change 
that outcome. And there is amazing innovation happening. I 
mean, one of the companies that I recently visited is 3D 
printing 80 percent of hypersonic engines, which will 
dramatically reduce from design to production to, like, 15 
months. It is amazing.
    But, so, you know, we are starting to get traction in 
really interesting areas. But we, as the Senator said, we are 
just playing catch-up.
    Mr. Talent. Yeah.
    Mr. Banks. Well, thank you to both, both of you. I believe 
you have done very well to set the stage for what we are trying 
to accomplish through this task force. With that, Chairman 
Moulton, I yield back.
    Mr. Moulton. Thank you, my friend. Now I would like to turn 
to Congresswoman Slotkin, who has spent a lot of time leading 
from inside the Department of Defense before coming to be a 
leader in Congress.
    Ms. Slotkin. Greetings to both of you. Sorry, I have a 
cold. I apologize. And especially Ms. Flournoy is the person 
who brought me over to the Pentagon. It is great to see you.
    So, couldn't agree with more on in particular how much we 
are sort of on our heels when it comes to bringing in defense 
innovation and the speed, the bridging the gap between concept 
and actual program of record. But I actually think personally 
there is a group of us who think it goes deeper than that, that 
we just don't have a doctrine of innovation at the Department. 
We don't have a sort of theory of how we bring new innovation 
in.
    And you talked about how you need to see top-down 
leadership in order to get people to take risks, get people to 
use the authorities Congress has given them. Can you tell me, 
you know, can you flesh that out a little bit? If a new 
Secretary of Defense came in and said, I really want to try and 
deal with this problem, that we are not taking advantage and 
bringing in, you know, new innovation, how would you 
specifically help filter that down to the depths of our 
acquisition officers?
    Ms. Flournoy. I actually--I think there is a leadership 
component. But I think the best way to change behavior is 
through training and incentivizing your human capital 
differently.
    Right now, you know, as the Senator described, people are 
terrified of failure in the acquisition--in any aspect of the 
acquisition system. You need to change the incentive to say, 
yeah, we want you to deliver major programs of record on time 
and in schedule and in costs. But when it comes to agile 
development of new technologies where we are experimenting and 
getting feedback from operators and then, you know, failing it, 
and then learning, and then doing better the next time, and it 
is this iterative process, you have to have a tolerance for 
failure.
    That means looking at how you reward and promote people. It 
means training them in a very different approach. Agile 
development is totally different than the traditional DOD 5000 
approach to acquisition. And I will give you an example of 
something great.
    Secretary ``Hondo'' Geurts is the acquisition executive in 
the Navy. This year the Navy's acquisition award went to 
someone who presided over a tech failure but learned. And that 
learning is what created the success for the Navy. And so he 
wanted to hold this guy up and say this is the new poster 
child. This is someone who took risk. By taking risk, you know, 
we failed, we learned, and now we are on the path to success 
much faster than we would have been had he been risk-averse.
    So that is the kind of thing, but it takes training people 
differently. It means rewarding them differently. It may even 
mean that we need a separate sub-cadre of acquisition 
professionals that are trained and incented differently than 
the rest. But--and it means the human capital piece, we have 
got to get more tech-savvy talent coming in and out of the 
Department at all levels, civilian and military, because, you 
know, it is a totally different skill set that requires a 
different approach.
    And, you know, so I would focus less on a doctrine and more 
on looking at the human capital piece and that training and 
incentive structure to get the change in behavior that you're 
looking for.
    Mr. Talent. Yeah, I couldn't agree more with that. I will 
just offer two things: one an inside-out feature, the other an 
outside-in feature.
    So, we need to reform the Pentagon personnel system in 
general. I did a project with Leon Panetta and Jim Jones a 
couple years ago. But it is absolutely crucial in this area, 
particularly hiring, retention, et cetera. And I am thinking 
area of Cyber Command, Space Command, high-tech areas, we 
cannot use a system that was designed to produce, you know, to 
get people in at age 19 and produce fighter pilots and ship 
captains. It works for that. It does not work for cyber and 
technology.
    And I think to the extent that we can just insist to the 
chiefs, make it a priority, and then SECDEF just says, Look, I 
want to see at the end of this year that you are using the 
authorities Congress has given you. And if you need more 
authorities, ask for them. And you are bringing people into 
these tech, whether it is procurement or whatever, and you are 
hiring them directly out of Silicon Valley on a specialized 2-
year package where they come in as a captain, or whatever it 
takes. I want you to recruit talent that way.
    And then the outside-in feature is this, and it is actually 
probably more hopeful: I do get a sense after looking at this 
that if we can do the bridge funding right, the procurement 
right, get the incentives right for the tech community so they 
see opportunities here, and I think a good deal of patriotism 
will go with this. If you look at the Hackers for Defense, 
these kids are excited by the prospect of standing up for human 
rights, and peace and, you know, and the norm-based system and 
the rest of it. But anyway, if you can get them to think of 
this as something they want to do, it is a business problem 
they need to solve to accomplish their objectives, I think from 
the outside-in they will find ways around the Pentagon culture 
and rules.
    And if you talk to the Digital Defense Service people, that 
is one of the things they do. When they describe how they hire 
people in--who is the fellow who runs that who briefed us at--
yeah. And he said we worked through, we got out the book on the 
Pentagon personnel hiring system and we figured out all kinds 
of workarounds, their stupid rules and the rest of it, so we 
were able to get people in on certain terms. So, I would really 
have him in here and talk to him about how he did it.
    Mr. Moulton. Thank you. Thank you very much.
    We now turn to the medical doctor on the task force. You 
know, there are a lot of places where we are facing competition 
from around the globe, but one place where people still come 
from all over to get American care is in our medical system. 
Our healthcare system is far from perfect, but in terms of 
technological innovation it remains unrivaled as a world 
leader. And so we are delighted to have Congressman DesJarlais' 
perspective on this task force.
    Mr. DesJarlais. Thank you, Chairman. And I am not going to 
ask any medical questions today. But----
    Mr. Moulton. We might ask you some.
    Mr. DesJarlais. Okay. I would just like to quantify things 
a little bit and the whole purpose of this task force to see 
where we are going to be and where we need to be. And I don't 
know if you can answer this question or not, but maybe try, 
play with me.
    We consider ourselves the greatest fighting force on Earth. 
And I think that is probably true. But, you know, we are here 
today because we have concerns of peer adversaries who are 
catching up. If you could, assuming that the United States is a 
10 when it comes to overall military, where was China and where 
was Russia 10 years ago, and where are they now on that scale?
    Ms. Flournoy. Yeah, that is a tough one. You know, I think 
let's start with, you know, I think overall as a military there 
is still no comparison between the Russian military and the 
U.S. military. But they have pockets of excellence where they 
have invested. They have invested in nuclear forces. They have 
invested in cyber. They have invested in space. They have 
invested in little green men and irregular forces that can do 
things like the operation in Ukraine.
    But, you know, it would not be a fair fight if we ever got 
into something with them. But, they are very, very good in this 
anti-access/area denial [A2/AD] capability in terms of what 
they have set up in and around Europe. And so, we want to make 
sure that we would do even bett--you know, I think that in a 
conflict, you know, they crossed a NATO border, we had a war 
with Russia, NATO would prevail; but it would be more costly 
today than it should be because we haven't made the necessary 
investments to counter their A2/AD capabilities.
    With regard to China, same thing. I mean, the military 
overall, you know, whether it is human capital, whether it is 
training, whether it is operational experience, it is nothing 
like the U.S. military. But that is not the point. I mean, they 
are taking an asymmetric approach. And the question is not so 
much, you know, in a conventional fight how would they compare. 
It is more have they invested enough and made enough progress 
in key asymmetric areas that they can actually undermine our 
strengths, and they can exploit our weaknesses and prevent us 
from being successful in even getting to the region and being 
able to operate effectively in the region.
    So, I think you have to look more--less at a sort of direct 
apples to apples comparison, and more of an asymmetric 
encounter kind of evaluation.
    Mr. Talent. Their militaries are adapted to their strategy 
better than ours is, in part because they, they were rising 
powers, they are revanchist powers, and they looked at what we 
did in the early 1990s, and they had problems they had to solve 
if they were going to exercise influence. So they--and they 
have adapted their military to those purposes. So, anti-access/
area denial, et cetera.
    At the task and the missions that are most relevant to 
their regions of the world, they have armed forces that are 
suited to that. Okay. Now, when you get beyond that, 
expeditionary, that sort of thing, there is no comparison that 
we are superior.
    But we have not, look, I think there was--and I was in, I 
was here and in the Senate for a long period of this time; we 
were distracted by other things, we were also the top dogs. We 
just didn't really think--and for a long time in the Department 
the assumption was that nobody would be able to challenge the 
United States for decades, right? And we weren't really 
thinking about it.
    I do think as regards the Chinese this is something--I am 
also on the China Commission and we studied this, so it's 
something that is actually quite relevant to our consideration. 
I reached the conclusion that Beijing really, really is 
concerned about the operational capabilities of the PLA. They 
have all this shiny new equipment and the rest of it, but they 
are very concerned about their ability to execute in a mission. 
And that is important.
    So, I would just say again it comes back to operational 
concepts and the rest of it. We've got to think in terms of how 
do we impose costs that are effective and real, short of 
escalating conflict? Because if the answer to something they 
are doing in the South China Sea, building an island, is to 
escalate it up, we are not going to do it. And they know we are 
not going to do it.
    Mr. DesJarlais. I asked--I am about out of time but thanks 
for the answers--I asked the question because we have 
challenges within our own defense budget. We spend way more 
than other countries combined, as has been pointed out again 
and again. And maybe a question for another time is, you know, 
how do we approach the Pentagon to re-prioritize that budget 
that we have to work with, if it's 710 or 750 billion, what do 
we get rid of and what do we change to change the culture that 
we need to to be where our adversaries want to be in 10 years, 
where we are now and where we will be then?
    So, thank you for the answers.
    Mr. Moulton. Scott, thank you very much.
    So, we now turn to Congressman Mitchell. One of the 
emergent themes from the early discussions of this task force 
without question is the integration of the private sector into 
what the Department of Defense is doing. And Congressman 
Mitchell brings tremendous experience from the private sector, 
and we are delighted to have your perspective on the committee.
    Mr. Mitchell. Thanks. Very kind of you.
    Let me start. I think one of the mistakes--and your 
feedback would be useful--the mistakes in our thinking in this 
nation is we separate out military power from national power. 
China in particular, but Russia has evolved, especially what 
Putin did, national power is linked to all their capabilities 
and they intertwine them. Somehow we think we have this 
distinct little military world and then our economic 
activities. Ah, there is some overlap but we--and I think we 
are losing the point.
    So, my question is, is how do we, how do we get that point 
across, not only just Congress but to the general public, that 
national power is in part based upon our economy, our 
educational system, as well as in the application of that in 
our military systems?
    Ms. Flournoy. Yes. No, it is such an important point. And 
we have talked a lot about the military because this is a task 
force of the House Armed Services Committee. But when I am out, 
you know, in public talking about this and people say, well, 
what do we do about China? I say the first thing we should do 
is invest in the drivers of our own competitiveness. And, yes, 
the military is on the list but it is not, you know, it is 
research and development. It is STEM education. It is 5G and 
21st century infrastructure. It is cutting-edge technologies. 
It is smart immigration policy that attracts and tries to keep 
the best----
    Mr. Mitchell. Yeah.
    Ms. Flournoy [continuing]. Tech talent in the world here in 
the United States, which is what our history has been.
    So it is all of those things. And then, yes, we also have 
to, you know, talk about how does the military contribute to 
deterrence and shaping the calculus of countries so that they 
don't commit aggression, and all of that. But it is first and 
foremost investing in those other areas and, oh by the way, 
investing in our diplomatic instruments, our ability to, you 
know, offer a counterpoint to the One Belt One Road, through 
maybe we need a digital, you know, infrastructure fund, or what 
have you, to offer, you know, other countries more open, 
transparent societies and so forth.
    So, anyway, but I totally agree with your point.
    Mr. Mitchell. Well, let me comment for both of you, and 
Senator, your feedback, I think I agree with you. Our decision-
making processes on Syria leave a lot to be desired. I don't 
think it sends the proper message to the world. And, frankly, 
canceling the summit in Copenhagen was not a great idea. That, 
in fact, one of the topics for that meeting was in fact 
investment in the Arctic, joint investment with Denmark and 
other countries, not just militarily, but other investment. And 
canceling that was a destructive act as well in my opinion. But 
we will see how we can get that back on track.
    Question: how is it that we, what is your idea in terms of 
co-investment with venture capital? You talked about it as 
well, getting venture capital involved. Rather than simply a 
bridge fund which is just send money, how do we, do you have 
any recommendations on how we encourage that co-investment 
between the government and venture capital, private equity, in 
technologies for mutual joint use? Senator, do you want to 
start this time? Or whoever.
    Ms. Flournoy. I mean, there have been some, you know, In-Q-
Tel is probably the best example of early-stage co-investment. 
And it sort of it is basically a Good Housekeeping Seal of 
Approval that, you know, the intelligence community is 
interested in this company, in this technology. And that tends 
to attract outside investment to support it.
    But I really don't think that--I think better than co-
investment, frankly, they need the market opportunity. It is 
much more powerful for DOD to say we are going to spend $10 
billion on AI technologies over the next 5 years, and to put 
out that target and that, you know, kind of commitment. And we 
are going to hold a series of competitive contract, you know, 
requests for proposals and other things to build an ecosystem 
around defense AI applications.
    That would move the needle far more for venture capitalists 
who are advising their companies on whether to pursue national 
security business or not than, you know, a $10 million co-
investment in a given company on AI.
    So, that is my view.
    Mr. Talent. I agree with that.
    Can I just make a couple of brief comments in response to 
your first question?
    Mr. Mitchell. Absolutely. Sure.
    Mr. Talent. I could not agree more with what Michele was 
saying about we need a whole-of-government approach to these 
competitions. Part of what you are doing and need to do is to 
strengthen the civilian elements of national influence. And I 
think somebody at some point needs to make a deal with the 
State Department which is, look, we are going to increase your 
funding, we are going to give you more authorities. You have 
got to become more like the Department of Defense in terms of 
planning and how you--we need them to play a stronger role.
    Now, a lot of that is not their fault. They don't have the 
funding, the training, the rest of it. But I want to see that 
happen with the State Department. I have talked with former 
SECSTATEs [Secretaries of State] about this, and they all want 
to do it.
    The only other comment I would make is this: I completely 
agree a lot of this competition is going to be prosecuted, and 
the primary tools we should want to use are the civilian tools 
of national influence. But the foundation of those tools is and 
will remain the United States ability to deter kinetic 
aggression. Okay.
    And one of my big concerns is if we start winning the 
competition on other fronts--reputationally, economically, and 
otherwise--these authoritarian regimes are fully capable of 
expressing their ambitions and responding through aggression, 
if that avenue is left open to them. As a matter of fact, that 
is a classic tactic, is to direct dissent outward by starting 
something with your neighbors.
    So, we can't--the hard-power tool is and will remain the 
foundation of the effort.
    Mr. Mitchell. Let me pose a quick question again, Mr. 
Moulton, and it won't be for this.
    You both had comments about investing in legacy technology. 
This is not the right environment to have that conversation, 
but I agree with you.
    But the question then gets down to specific recommendations 
of what it is we delay investment or consider not and invest 
elsewhere? I agree with the discussion, it is easier to make 
that kind of general comment. But then in a classified 
environment we can talk about what do we, where do we start on 
that, and it's not going to make a variety of people happy. But 
that is part of why we have this group.
    Ms. Flournoy. Just make a 10-second conceptual answer which 
is I really--for me what has been helpful is this knee-in-the-
curve idea which is, you know, if you took the money for the 
n+1 platform, or whatever that type is, and you folded it into, 
you know, this is, okay, it is going to be operating in a more 
contested environment, so I am going to put money into the 
defenses of that system. I am going to put money into buying 
back that system's range and ability to reach out and touch, 
you know, a much more protected adversary. I am going to make 
sure it is cyber secure. I am going to make sure it can 
leverage and plug into an interoperable network.
    So, I think it is really, like, it is really where does--it 
is not worth buying that additional platform but to take that 
money to make all of the other platforms in that class more 
survivable, more effective, more relevant.
    Mr. Mitchell. That is my questions for you is which ones? 
Where do we start? That is the question.
    Ms. Flournoy. Okay, yes. We can, we can follow up on that.
    Mr. Moulton. Thank you. Thank you very much.
    So, we now turn to the first Green Beret in Congress, 
Congressman Michael Waltz. I spent quite a good deal of time 
working on the ground in Iraq with Green Berets, and I always 
found them generally quite talented, and capable, and smart, 
and all the above. So I am not quite sure what took so long. 
But we are delighted to have you here, Mike.
    Mr. Waltz. I have a side mission to make ``De Oppresso 
Liber'' as popular as ``Semper Fi,'' but I have a long way to 
go, man.
    So, just two quick comments. And first of all, it is great 
to see you again, Michele, and good to meet you, Senator. Two 
quick comments on some of the things that you have talked about 
because I also sit on the Science and Technology Committee. 
And, yes, we need to invest in foundational research, R&D 
[research and development], all of those pieces. But it is much 
broader than defense investment. And we need to re-look at how 
the Chinese are taking advantage of what I think is our 
greatest strength, which is the openness of our educational 
system.
    But, for example, you know, if you receive a grant from the 
National Science Foundation and come up with some amazing 
research, statutorily you have to make that publicly available. 
And so what I don't want to see, or what we are looking at on 
the other committee is how do we, you know, how do we maintain 
that openness but then also protect it?
    Because I would hate to see all of this taxpayer investment 
just for it to continue to be stolen. Whether it is Confucius 
Institutes or, you know, in a number of other ways.
    So, that is one. And then, two, Senator, I do think we have 
a fantastic bridge in place in terms of personnel reform where 
you are looking to bring in folks from Silicon Valley, give 
them a few years, or bring in specific types of talent. It is 
called the National Guard and the Reserve. And I don't think we 
use them and think about them nearly as effectively. I mean, 
you have to think about, you know, I had a master sergeant who 
is a fantastic weapons guy, but he was also a vice president 
for Verizon's cell phone network. Where is he better used?
    But when I asked the Guard, can you tell me how many people 
you have working in Silicon Valley, that is just not how they 
are organized. They are organized to be a supplement for a 
brigade combat team.
    So, looking at ways that we can really--I mean, I think 
those bridges are in place. You could take a cyber expert that 
is learning the latest and greatest and put them on orders for 
a year or two to infuse that back in.
    So, I would just encourage as you guys, as you both engage, 
to think about that as well, whether it is stability 
operations, cyberspace, election security. Who is in all 9,000 
counties in the United States? The Guard. It is really our only 
national entity.
    Question for you, because I was reading through your trade-
off component, and it is similar to my colleague that I am 
still trying to convince not to retire, who I think is 
fantastic. You know, I am really interested in what we don't 
do. What do we give up in terms of platforms and missions? I 
think the existential question for this committee is how do we 
deal with extremism, China, Russia, rogue states, overlaid with 
$23 trillion in debt? There at some point has to be trade-offs. 
So, what systems more specifically would you advise that we 
give up to invest elsewhere?
    Ms. Flournoy. Well, let me start by directing you to if you 
have, I am sure you have, but if you take a second reading of 
the new Commandant's statements, he has basically presented 
this framework for the Marine Corps to say, look, the things 
that have been, the metrics by which we measured our power in 
the past, you know, how, you know, amphibious shipping, large 
deck amphib, et cetera, you know, that is not necessarily the 
right--what is going to determine whether we win in the future. 
I have a new concept of distributed maritime operations. There 
are lots of things I need to invest in to make the Marine Corps 
able to really support the broader Navy in sea control in this 
much different kind of way of operating in a contested 
environment.
    And so, you know, watch this space. You should expect that 
I am going to make some trade-offs in traditional platform buys 
in order to invest in a whole lot of new technology areas.
    So he, of all of the chiefs, I think he has been the most 
explicit on how he is starting to frame those trade-offs.
    MCCDC has done--the Marine Corps Combat Development Command 
down in Quantico has done really cutting-edge work conceptually 
to kind of try to frame this so that individual tech and 
program decisions have a conceptual basis for being made.
    So, I do think that is probably the most forward-leaning 
example. But all of the services are busy trying to get at 
exactly this point. And, you know----
    Mr. Waltz. Right. I----
    Ms. Flournoy. Sorry.
    Mr. Waltz. No, I think it is a great example just in the 
interests of time of kind of taking on what we talked about in 
terms of sacred cows.
    But I would love either for the record or in a follow-on 
session, as you look at the new NDS [National Defense Strategy] 
and then you look at where we are actually spending, you know, 
what is outside of that scope? What is--where are we basically 
spending on what I call, you know, great traditions that we 
often find in the services, whether it is static line airborne 
operations or, you know, Inchon-style amphibious landings, or 
the 12-carrier fleet, what conceptually are you seeing that 
falls outside of that framework and we are doing it just 
because?
    Ms. Flournoy. I would be happy to come back and talk to you 
individually or to the task force.
    Mr. Waltz. Thank you.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Moulton. The one other question I was going to ask is 
actually about the Commandant's new guidance. So, we are in 
good shape there. Thank you.
    Mr. Waltz. Marines can be forward-thinking, too.
    Mr. Moulton. Well, thank you all very much. This has been 
fantastic and we have covered a lot of ground.
    I will give the two witnesses an opportunity to provide any 
closing remarks, if you have any, and then we will conclude the 
hearing.
    Ms. Flournoy. Just to say thank you for the work you are 
doing. I think this is one of the most important things that 
the House and, you know, the Congress in general is doing. It 
is so important that we get this right and get it right 
quickly.
    And just to say I am happy to support your work in any way 
that I can in a follow-on way. I will also just flag that we 
are currently involved specifically on a project on this human 
capital question on tech talent. Happy to share those results 
with you when we get there.
    Mr. Moulton. Great. Thank you, Secretary.
    Mr. Talent. I just want to repeat, I was greatly encouraged 
to see the formation of this task force. I cannot think in 25 
years of when the committee has done something like this. And 
its existence is sending the right signal to the Department.
    In fact, I don't know, you probably have the same 
experience, I have had a number of people, not from inside the 
government, but people call me when you put the hearing notice 
out, because I was testifying, to urge me to talk about this or 
that or the other thing, and to say how excited they were that 
you all were here. And so, I am grateful that you are doing it. 
And if we can help in any way, either one of us I am sure, let 
us know.
    Mr. Moulton. Well, thank you. I am confident we will take 
you both up on those offers. We are excited as well, but we 
have an awful lot of work ahead of us in a mere 6 months. We 
look forward to being in touch.
    With that, this concludes the hearing. Thank you all very 
much.
    [Whereupon, at 11:31 a.m., the task force was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            October 29, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 29, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
  

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 29, 2019

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. WALTZ

    Ms. Flournoy. I am not sure I can give you a short answer to your 
very important question. But I do believe that the best way for the DOD 
to answer your question is to ramp up its efforts to develop joint and 
service-specific operational concepts to inform tough decisions about 
where to divest or accept and manage greater risk. The United States 
needs urgently to develop and test joint concepts, such as Multi-Domain 
Operations, and supporting service concepts, such as the Navy/Marine 
Corps' Distributed Maritime Operations, both of which are premised on 
eroding adversary advantages by creating simultaneous dilemmas across 
multiple domains, spreading out (rather than concentrating) the force 
across the theater of operations. Testing the technologies that will be 
most critical to operationalizing these concepts--from battle 
management networks to unmanned systems to long-range precision fires--
will require a continuous, reinforcing cycle of wargaming, prototyping 
and experimentation. One way Congress can help would be to provide the 
services with robust funding to field small numbers of emerging 
capabilities for early-stage concept development and experimentation. 
For example, Congress should not hesitate to allow a service to acquire 
small numbers of AI-enabled unmanned systems of various types to 
facilitate the development of new concepts for human-machine teaming. 
Unfortunately, DOD and Congress now find themselves in a Catch-22--some 
appropriators want more clarity before they fund experimental systems, 
while the Department needs a certain number of these systems to 
experiment with in order to develop a compelling case for Congress to 
fund the capability long-term. It's time to break this logjam, accept a 
bit more risk in the short term, and allow the services to acquire the 
prototypes they need to enable an agile development process that 
includes robust field experimentation and iterative feedback from the 
warfighter. This is the only way we will be able to develop new 
concepts and capabilities fast enough to keep pace with our 
competitors. And it is this work that will ultimately enable us to have 
definitive answers to your question.   [See page 27.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 29, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. HOULAHAN

    Ms. Houlahan. Is the Department prepared to consider the ethical 
implications of artificial intelligence? I understand the Pentagon is 
looking to hire an AI ethicist, though just the one seems to be 
inadequate. Is there more the Department should do? If so, what?
    Ms. Flournoy. I am encouraged by the Defense Innovation Board's 
release of its AI ethics principles and the positive response from the 
Department. The United States should continue to play a leadership role 
in setting the rules that will govern the ethical use of AI and other 
critical emerging, dual-use technologies. I agree with the DIB's 
recommendations that the use of AI should be governed by a continued 
commitment to develop, test, and deploy systems that reliable, 
equitable, traceable, and governable. I also believe that as the 
Department implements and formalizes these principles, DOD and Congress 
should engage with industry partners--both traditional primes and tech 
companies--to ensure greater cooperation in building and leveraging 
these capabilities.
    Ms. Houlahan. I understand the Presidential Policy Directive 21 
(PPD-21), which divvies up responsibilities within the Federal 
Government for cyber, was issued in 2013. Given the rapid development 
of cyber, do you have any insight into whether PPD-21 is due to be 
updated to reflect the developments in cyber? Are there other 
directives that are due for modernization that this committee could 
take action on?
    Ms. Flournoy. [No answer was available at the time of printing.]
    Ms. Houlahan. In nuclear policy, the concept of deterrence is 
founded in our understanding of our adversaries' nuclear capabilities 
and our adversaries' understanding our own nuclear capabilities. Do you 
have an understanding of what work is being done to establish global 
cyber norms? Further, is there work to be done on development of global 
cyber norms that is not currently being done?
    Mr. Talent. The Task Force did not inquire into the question of 
global norms for cyber or cyber deterrence theory. I am not familiar 
with efforts on a governmental level to establish such norms, other 
than the work in both the Obama and Trump Administrations regarding 
cyber espionage and cyber theft. I know Cyber Command is working out 
operational concepts and doctrine regarding its own capabilities. I 
certainly agree that these are vital concerns, given the power of cyber 
weapons, their escalatory potential, and the downside consequences of a 
miscalculation.

                                  <all>
</pre></body></html>
